Semiannual Report to Congress
April 1, 2010 – September 30, 2010



                                 November 2010




   Federal Election Commission - Office of Inspector General
          999 E Street, N.W. Suite 940, Washington, D.C. 20463
April 1, 2010 - September 30, 2010




                                     FEDERAL ELECTION COMMISSION
                                     WASHINGTON, D.C. 20463




            OFFICE OF THE CHAIRMAN
                                                                           November 22, 2010

                      The Honorable Nancy Pelosi
                      Speaker of the House of Representatives
                      Washington, D.C. 20515

                      Dear Madam Speaker:

                      	         Pursuant to the Inspector General Act of 1978, as amended, the Federal Election
                      Commission submits the Office of Inspector General’s Semiannual Report to Congress. The
                      report summarizes the activity of the FEC Office of Inspector General (“OIG”) from April 1,
                      2010 through September 30, 2010. During this reporting period, the FEC’s Inspector General
                      commenced an audit of the FEC’s fiscal year 2010 financial statements. The audit was
                      completed on time and management issued the final Performance and Accountability Report
                      on November 15, 2010. We are pleased to report that the Commission received an unqualified
                      opinion from the Inspector General’s independent auditors. We will provide additional
                      comments on this audit in the next Semiannual Report to Congress.

                                During the semiannual period, the OIG contracted with independent auditors to
                      conduct follow-up audits on two previously completed audits: the 2007 Performance Audit of
                      Privacy and Data Protection and the 2008 Audit of Procurement and Contract Management.
                      Reports on these audits are expected in the next semiannual period.

                                The Commission appreciates and shares the Inspector General’s commitment
                      to sound financial and management practices, and we anticipate a continued cooperative
                      working relationship as management takes appropriate measures to improve operations of the
                      Commission.

                              Copies of the Semiannual Report are being provided to the Chairman and Ranking
                      Members of the FEC’s oversight committees.

                                                                           On behalf of the Commission,




                                                                           Matthew S. Petersen
                                                                           Chairman

                      Enclosure




                                                                                                                    i
     Office of Inspector General Semiannual Report to Congress




ii
April 1, 2010 - September 30, 2010




                                     iii
                           Office of Inspector General Semiannual Report to Congress




     This Page Intentionally Left Blank




iv
April 1, 2010 - September 30, 2010




                                      FEDERAL ELECTION COMMISSION
                                      WASHINGTON, D.C. 20463
                                      Office of Inspector General



                                             A Message from the Inspector General


                   The Office of Inspector General has had a very successful six months. We surveyed the
                   Federal Election Commission (FEC) staff for input into our annual work plan. The office
                   also conducted our annual brainstorming session and using both of these events,
                   produced our office work plan for Fiscal Year 2011. The work plan contains those areas
                   that the OIG will be focusing resources on in the upcoming fiscal year.

                   We also started the FY 2010 Financial Statement Audit and two follow up audits, all of
                   which are being conducted by independent accounting firms under the monitoring of the
                   OIG. The OIG has also commenced a peer review of another Office of Inspector
                   General. All of these projects will be completed during the next semiannual reporting
                   period.

                   The office has continued its outreach efforts to the staff of the Commission. We have
                   updated the presentation the Counsel to the Inspector General conducts for all new FEC
                   employees and in the upcoming year are planning on attending the various offices’ and
                   divisions’ regular staff meetings to provide information and answer questions about the
                   OIG and its work.

                   As always, the work of the OIG could not be accomplished without the dedication and
                   hard work of the OIG staff. I appreciate the time and effort they put into the work they
                   do and the care with which they do their jobs.




                   Lynne A. McFarland
                   Inspector General
                   Federal Election Commission


                   October 29, 2010




                                                                                                              v
                           Office of Inspector General Semiannual Report to Congress




     This Page Intentionally Left Blank




vi
April 1, 2010 - September 30, 2010




                                                                 Table of Contents



     Executive Summary	                                                                            1
     The Federal Election Commission 	                                                             3
     Office of Inspector General	                                                                  4
     OIG Audit Activity	                                                                           5	
              Audit of the Federal Election Commission’s Fiscal Year 2010 Financial Statements	   5
     OIG Audit Follow-up Activity	                                                                 6
              Follow-Up Audit of the 2007 Performance Audit of Privacy and Data Protection	       6
              Follow-up Audit of the 2008 Audit of Procurement and Contract Management	           6
     OIG Hotline Information	                                                                      8
     OIG Investigations	                                                                           9
     Additional OIG Activity	                                                                     10
     Council of the Inspectors General on Integrity and Efficiency (CIGIE) Activity	              12
     OIG Contacts	                                                                                13
     List of Training, Meetings and Conferences Attended by OIG Staff	                            14
     Reporting Requirements 	                                                                     16
     Table I – Inspector General Issued Reports With	                                             17
                 Questioned Cost
     Table II – Inspector General Issued Reports With	                                            18
                 Recommendations That Funds Be Put To Better Use
     Table III – Summary Of Audit Reports With	                                                   19
                 Corrective Actions Outstanding For More Than Six Months
     OIG Fiscal Year 2011 Work Plan	                                                              21




                                                                                                        vii
                     Office of Inspector General Semiannual Report to Congress




This Page Intentionally Left Blank
April 1, 2010 - September 30, 2010




                                                            Executive Summary



The Inspector General Act of 1978, as amended,          The OIG began a Peer Review of the U.S.
states that the Inspector General is responsible for    Commodity Futures Trading Commission (CFTC)
conducting audits, inspections, investigations, and     OIG (OIG-10-04) during this semiannual reporting
recommending policies and procedures that pro-          period. Inspectors General conduct audits in accor-
mote economic, efficient, and effective use of agency   dance with generally accepted government auditing
resources and programs that prevent fraud, waste,       standards (GAGAS). Audit organizations conduct-
abuse and mismanagement. The IG Act also requires       ing audits in accordance with GAGAS are required
the Inspector General to keep the Commission and        to have an independent peer review every three
Congress fully and currently informed about prob-       years. The objective of the peer review program is to
lems and deficiencies in the Commission’s opera-        ensure an audit organization’s internal quality con-
tions and the need for corrective action.               trol system adequately provides reasonable assur-
                                                        ance that applicable auditing standards, policies,
This semiannual report includes the major accom-        and procedures are being followed. The peer review
plishments of the Federal Election Commission           entrance conference was held on July 16, 2010, and
(FEC) Office of Inspector General (OIG), as well as     fieldwork was performed August 3 through 20, 2010.
relevant information regarding additional OIG activi-   A discussion meeting was held with the CFTC IG
ties. The executive summary highlights the most         and staff on August 27, 2010 to communicate the ini-
significant activities of the OIG. Additional details   tial findings noted during the peer review. As of the
pertaining to each activity (audits, hotline, and in-   close of this reporting period, the FEC OIG was in
vestigations) can be found in subsequent sections of    the process of drafting the peer review draft report
this report.                                            and plans to issue the final report to the CFTC OIG
                                                        and complete the peer review in the next reporting
The Audit of the FEC’s Fiscal Year 2010 Financial       period.
Statements (OIG-10-01) commenced during this
reporting period. Under a contract monitored by the     In September 2010, the OIG awarded two contracts
OIG, the independent public accounting (IPA) firm       to the IPA firm of Cherry, Bekaert & Holland (CBH)
of Leon Snead & Company (LSC) is responsible for        LLP. The OIG contracted with CBH LLP to conduct
performing the audit of the FEC’s FY 2010 finan-        follow-up audits on two previously completed OIG
cial statements. The contract requires LSC to issue     audits: 1) OIG-07-02, 2007 Performance Audit
an opinion regarding whether the FEC’s financial        of Privacy and Data Protection, and 2) OIG-08-
statements and supplemental information are fairly      02, 2008 Audit of Procurement and Contract
presented in all material respects in accordance with   Management. The purpose of the follow-up audits
Generally Accepted Accounting Principles. In addi-      will be to determine whether management imple-
tion, LSC audits internal controls and compliance       mented the agreed actions for each audit recommen-
with laws and regulations for matters relevant to the   dation contained in the audit reports and whether
financial statements. The 2010 financial statement      each audit finding has been fully resolved. A kick-off
audit report is scheduled to be issued by November      meeting was held with CBH, OIG and FEC man-
15, 2010.                                               agement in late September 2010 and planning for
                                                        fieldwork is underway. The final report for the Privacy
                                                        and Data Protection Follow-up Audit is scheduled



                                                                                                             1
                                                          Office of Inspector General Semiannual Report to Congress




to be issued by January 30, 2011; the report for the
Procurement and Contract Management Follow-up
Audit by March 31, 2011.

For detailed information regarding the above audits
and audit follow-up activity, see the section entitled
OIG Audit Activity (starting on page 5); and OIG
Audit Follow-up Activity (starting on page 6).

The Inspector General continues to be very involved
in the Council of Inspectors General on Integrity
and Efficiency (CIGIE). Ms. McFarland is a mem-
ber of the Executive Council, which is composed
of the Chair, Vice Chair, the past Vice Chair of the
President’s Council on Integrity and Efficiency, all
Committee Chairmen and one member appointed by
the Chair. The Executive Council provides guidance
on CIGIE initiated projects and the operating plans
for each fiscal year. The Council meets monthly to
discuss issues that will affect CIGIE.

The Inspector General also co-chairs the Inspector
General Candidate Recommendation Panel with
the Justice Department Inspector General. This
panel is charged with making recommendations of
qualified candidates to the White House and heads
of various federal agencies to be considered for
vacant Inspector General positions. In addition,
the Inspector General is Vice Chair of the CIGIE
Professional Development Committee. This com-
mittee is charged with ensuring that there is strong,
relevant training for the Inspector General com-
munity. For more information on the IG’s involve-
ment with CIGIE, see the section entitled Council of
the Inspectors General on Integrity and Efficiency
(CIGIE) Activity (located on page 12).

As of the end of this reporting period, there are
two hotline complaints open and in various stages
(pending, in progress); six new hotline complaints
were opened; and thirteen hotline complaints were
closed during this semiannual reporting period. In
addition, there are two open investigations and five
investigations were closed this reporting period. For
more information pertaining to the hotline issues,
see the section entitled OIG Hotline Information (lo-
cated on page 8); for more information on investiga-
tions, see the section entitled OIG Investigations (lo-
cated on page 9).



2
April 1, 2010 - September 30, 2010




                             the federal election commission



                                        In 1975, Congress created the Federal Election
                                        Commission (FEC) to administer and enforce the
                                        Federal Election Campaign Act (FECA). The duties
                                        of the FEC, an independent regulatory agency, are to
                                        disclose campaign finance information; enforce the
                                        provisions of the law; and oversee the public funding
                                        of Presidential elections.

                                        The Commission consists of six members who are
                                        appointed by the President and confirmed by the
                                        Senate. Each member serves a six-year term, and
                                        two seats are subject to appointment every two
                                        years. By law, no more than three Commissioners
                                        can be members of the same political party,
                                        and at least four votes are required for any offi-
                                        cial Commission action. The Chairmanship of the
                                        Commission rotates among the members each year,
                                        with no member serving as Chairman more than
                                        once during his or her term. Currently, the FEC has
                                        a full complement of Commissioners – Matthew
                                        S. Petersen, Chairman; Cynthia L. Bauerly, Vice
                                        Chairman; and Commissioners; Caroline C. Hunter;
                                        Donald F. McGahn II; Steven T. Walther, and Ellen L.
                                        Weintraub.




                                                                                           3
                Office of Inspector General Semiannual Report to Congress




    Office of Inspector General



           The Inspector General Act of 1978 (P.L. 100-504),
           as amended, states that the Inspector General
           is responsible for: 1) conducting and supervising
           audits and investigations relating to the Federal
           Election Commission’s programs and operations; 2)
           detecting and preventing fraud, waste, and abuse
           of agency programs and operations while provid-
           ing leadership and coordination; 3) recommending
           policies designed to promote economy, efficiency,
           and effectiveness of the agency; and 4) keeping
           the Commission and Congress fully and currently
           informed about problems and deficiencies in FEC
           agency programs and operations, and the need for
           corrective action.




4
April 1, 2010 - September 30, 2010




                                                              OIG Audit Activity



Audit of the Federal Election Commission’s               4) examining audit documents and reports to ensure
Fiscal Year 2010 Financial Statements                    compliance with GAGAS, and OMB Bulletin No. 07-
                                                         04; and 5) other procedures the OIG deems neces-
Assignment Number:	         OIG-10-01                    sary to oversee the contract and audit.

Status:	 In Progress                                     The audit entrance conference was held on May 5,
                                                         2010. Representatives from the OIG, LSC, and FEC
The Chief Financial Officers Act of 1990 (Public Law     attended the entrance conference and discussed the
101-576, commonly referred to as the “CFO Act”), as      audit scope, objectives and ways to ensure an ef-
amended, requires the FEC OIG or an independent          ficient and effective audit process. An audit timeline
external auditor, as determined by the Inspector         was established, along with requests to manage-
General, to audit the agency financial statements.       ment for necessary documentation and information
Under a contract monitored by the OIG, Leon Snead        concerning the financial statements. The planning
& Company (LSC), an independent certified public         and interim audit testing phases were completed by
accounting and management consulting firm was            LSC during this semiannual period. The OIG re-
awarded a five year contract to audit the FEC’s fi-      viewed LSC’s audit planning methodology and in-
nancial statements beginning in FY 2009.                 terim audit testing results, and provided comments
                                                         to LSC. In addition, LSC prepared several notices of
LSC was contracted to conduct the financial              findings and recommendations which were reviewed
statement audit following Generally Accepted             by the OIG and then issued to FEC management for
Government Auditing Standards (GAGAS) and                a response.
Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial      The OIG coordinated and attended regular biweekly
Statements, as revised. The audit contract requires      audit status meetings with LSC and FEC manage-
LSC to issue an opinion regarding whether the            ment during the audit; more frequent meetings will
FEC’s financial statements and supplemental infor-       be held in the month of October as the audit nears
mation are fairly presented in all material respects     completion. In addition, the OIG coordinated and at-
in accordance with Generally Accepted Accounting         tended meetings with LSC and the FEC’s Chairman
Principles. In addition, LSC audits internal controls    and Vice Chair to discuss the audit objectives and
and compliance with laws and regulations for mat-        progress of the audit. The 2010 financial statement
ters relevant to the financial statements. The audit     audit report is scheduled to be issued by November
is completed in four phases: planning; review and        15, 2010.
evaluation; testing (interim and final); and reporting
and work paper delivery.

The OIG is responsible for oversight of the finan-
cial statement audit, which includes: 1) reviewing
the auditors’ approach and planning of the audit; 2)
evaluating the qualifications and independence of
the auditors; 3) monitoring the work of the auditors;



                                                                                                              5
                                                              Office of Inspector General Semiannual Report to Congress




                                  OIG Audit Follow-up Activity



Follow-Up Audit of the 2007 Performance Audit of         report. Also, the 2007 audit included a follow-up
Privacy and Data Protection                              review of the thirteen prior-year recommendations
                                                         contained in the OIG’s 2006 Inspection Report on
Follow-up Audit of the 2008 Audit of Procurement         Personally Identifiable Information; the auditors
and Contract Management                                  determined that seven recommendations from the
                                                         2006 inspection were fully implemented (closed)
Assignment Numbers:	 OIG – 10-02                         and six remained open.
			                  OIG – 10-03
                                                         The 2010 contracted follow-up audit will determine
Status:	 In Progress                                     whether management implemented the outstanding
                                                         agreed actions included in the 2007 Performance
In September 2010, the OIG awarded two con-              Audit of Privacy and Data Protection and the
tracts to the IPA firm of Cherry, Bekaert & Holland      2006 Inspection Report on Personally Identifiable
(CBH) LLP. The OIG contracted with CBH LLP to            Information. For the two findings and six recommen-
conduct follow-up audits on two previously com-          dations where management did not agree, follow-
pleted OIG audits: 1) OIG-07-02, 2007 Performance        up testing will be performed to determine whether
Audit of Privacy and Data Protection, and 2) OIG-        revised business processes and controls have ad-
08-02, 2008 Audit of Procurement and Contract            dressed the findings and recommendations to the
Management.                                              extent that they may be classified as fully imple-
                                                         mented (closed).
The first audit contract will focus on determining
whether the FEC has implemented audit recommen-          The second audit contract awarded to CBH will de-
dations contained in previously issued OIG audit/        termine whether the FEC has implemented the rec-
inspection reports on privacy. Specifically, in 2006,    ommendations contained in a previously issued OIG
the OIG contracted with an IPA to conduct an in-         procurement audit. Specifically, in 2008 the OIG
spection of personally identifiable information within   contracted with an IPA to conduct a performance au-
the FEC. The 2006 Inspection Report on Personally        dit of the FEC’s procurement and contract manage-
Identifiable Information provided FEC management         ment. The audit included a review of approximately
with thirteen recommendations to correct privacy         $27.6 million of various types of procurement instru-
weaknesses identified during the review. In addi-        ments (e.g. contracts, purchase orders, blanket pur-
tion, in 2007 the OIG contracted with a different IPA    chase agreements, and one specified interagency
to conduct a performance audit of privacy and data       agreement) awarded/executed by the Procurement
protection policies and procedures and, specifical-      and Contracting Office in fiscal years 2006 through
ly, to determine if the FEC is complying with pri-       2008. The audit of the FEC’s procurement and
vacy requirements contained in section 522 of the        contract management activities identified nine sig-
Consolidated Appropriations Act, 2005. The 2007          nificant issues that prevent the Procurement Office
audit identified seven significant issues and made       from achieving compliant and effective functions and
thirteen recommendations to address the audit find-      made fifteen recommendations. Management pre-
ings, however FEC management did not agree with          pared a corrective action plan (CAP) to address the
two findings (six recommendations) included in the       findings and recommendations included in the 2008



6
April 1, 2010 - September 30, 2010




Audit of Procurement and Contract Management
Report. The contracted follow-up audit will deter-
mine whether management implemented the agreed
actions for the fifteen recommendations and whether
each audit finding has been fully resolved.

In order to procure the contracted follow-up audit
services from an IPA, the OIG prepared two state-
ments of work and submitted the requests for pro-
posals to prospective contractors. Six IPAs submit-
ted twelve proposals: all firms submitted separate
proposals to perform both of the follow-up audits. A
panel of OIG staff members reviewed and scored
the proposals, and following the completion of the
review of the proposals, contracts for the two audits
were awarded to Cherry, Bekaert & Holland LLP
(CBH). A kick-off meeting was held with CBH, OIG
and FEC management in late September 2010 and
planning for fieldwork is underway. The final report
for the Privacy and Data Protection Follow-up Audit
is expected to be issued by January 30, 2011 and
the final report for the Procurement and Contract
Management Follow-up Audit by March 31, 2011.




                                                        7
                                                                Office of Inspector General Semiannual Report to Congress




                                               OIG hotline Information:



The Office of Inspector General (OIG) established a        or in progress); six new hotline complaints were
hotline to enable employees and others to have di-         opened; and thirteen hotline complaints were closed
rect and confidential contact with the OIG. The OIG        during this semiannual reporting period.
receives complaints through various means such
as U.S. mail, telephone, e-mail, fax, inter-office mail,
and personal visits to the OIG. Once a hotline (HL)
complaint has been received, a preliminary inquiry
is conducted. When an evaluation has been com-
pleted, the hotline complaint may be closed with no
further action taken; referred to management or an-
other agency; or an investigation may be initiated.

An OIG hotline complaint policy was developed to
guide the OIG’s effort to ensure consistency and
fairness in its case initiation decisions; and serves
as a guide for the OIG to manage the increased
case load in the number of hotline complaints. The
policy defines “hotline complaints” as allegations or
referrals of fraud, waste, abuse, mismanagement,
and misconduct involving FEC employees/contrac-
tors, programs, operations, property, or funds.

The OIG considers many factors when evaluating
whether to open an investigation based on a hotline
complaint, and acknowledges that every allegation
or complaint received by the OIG cannot be investi-
gated. The policy includes evaluation considerations,
such as the merits of an allegation; the availability of
evidence; and the existing priorities, commitments,
and resources of the OIG. Under this revised policy,
hotline complaints shall be classified as either high
or low priority complaints. High priority complaints
are investigated and low priority complaints are ei-
ther closed with no action, or referred to an appro-
priate official for possible further review. Under this
policy, hotline evaluation decisions are made by the
Chief Investigator, with concurrence from the Deputy
IG.

As this reporting period concludes, the OIG has two
open hotline complaints in various stages (pending


8
April 1, 2010 - September 30, 2010




                                      OIG investigations:



                                     OIG investigations seek out facts related to allega-
                                     tions of wrongdoing. OIG investigations may ad-
                                     dress administrative, civil, and criminal violations
                                     of laws and regulations. The subject of an OIG in-
                                     vestigation can be any agency employee, an FEC
                                     contractor, consultant, or a person or entity involved
                                     in alleged wrongdoing affecting FEC programs and
                                     operations. The OIG conducts a detailed examina-
                                     tion or inquiry into issues brought to our attention by
                                     various sources. At the conclusion of an OIG investi-
                                     gation, the OIG prepares a report that sets forth the
                                     allegations and an objective description of the facts
                                     developed during the investigation.

                                     As of the end of the semiannual reporting period,
                                     there are two open investigations and five investiga-
                                     tions were closed during this reporting period.




                                                                                          9
                                                            Office of Inspector General Semiannual Report to Congress




                                                Additional OIG Activity:



Besides conducting audits, inspections, and investi-        Investigative Services regarding background
gations, the OIG performs, and is involved in an ar-        information relevant to their investigations. The
ray of additional projects and activities. As required      OIG also responded to GAO’s Statement of
by the Inspector General Act of 1978, as amend-             Facts referring to the work GAO is conduct-
ed, all legislation compiled by the Commission’s            ing concerning the Association of Community
Congressional Affairs Office is reviewed by the             Organizations for Reform Now (ACORN).
Inspector General. In addition, the Inspector General
routinely reads all Commission agenda items. The         •• The IG participated in an Association of
Inspector General also reviews and provides com-            Government Accountants (AGA) roundtable
ments, when appropriate, on legislation provided by         discussion for accounting professionals early
the Council of Inspectors General on Integrity and          in their careers. Topics of discussion included
Efficiency (CIGIE) Legislative Committee. Listed be-        career choices/decisions, and the effect those
low are examples of the OIG’s additional activities:        choices can have on one’s career, followed
                                                            by a question and answer session from the
  •• The OIG conducts audits in accordance with             participants.
     generally accepted government auditing stan-
                                                         •• The OIG completed its annual work plan, the
     dards (GAGAS). Audit organizations conduct-
                                                            work plan includes a description of audits, in-
     ing audits in accordance with GAGAS are
                                                            spections, investigative and special projects
     required to have an independent peer review,
                                                            planned for fiscal year 2011. In addition, the
     at least every three years, of their quality con-
     trol system. This reporting period the FEC OIG         OIG updated the office’s strategic plan for the
     commenced an audit peer review of the U.S.             period 2010-2015.
     Commodity Futures Trading Commission OIG            •• The OIG participated in a one day Continuity of
     as part of the CIGIE audit peer review pro-            Operations Plan (COOP) / Disaster Recovery
     gram. The FEC OIG expects to finalize the peer         Plan (DRP) workshop. The OIG reviewed and
     review of the CFTC OIG in the next reporting           provided comments on the written business
     period. The FEC OIG is scheduled to be peer            impact analysis, one of the deliverables from
     reviewed in FY 2011.                                   the COOP/DRP workshop. The results of the
  •• The OIG responded to Representative Darrell            workshop will be used to create recovery plans
     Issa’s correspondence regarding outstanding            for the OIG to ensure maximum continuity of
     recommendations. The OIG created a spread-             operations for the office and its services to the
     sheet listing all outstanding recommendations          agency.
     and forwarded the results to Representative
                                                         •• The OIG prepared the annual assessment
     Issa’s office (141 open recommendations that
                                                            of the most serious management and per-
     have not yet been implemented; 35 were less
                                                            formance challenges facing the FEC. The
     than 6 months old as of 04/16/10).
                                                            IG identified three management and perfor-
  •• The OIG met with representatives from the              mance challenges for inclusion in the FEC’s
     Government Accountability Office OIG and               2010 Performance and Accountability Report
     Office of Personnel Management Federal                 (PAR): Governance Framework; Human Capital


10
April 1, 2010 - September 30, 2010




      Management; and Information Technology
      Security.

  •• The OIG reviewed the FEC’s corrective ac-
     tion plan for the OIG’s 2010 Audit of the
     Commission’s Property Management Controls
     and provided feedback to management. The
     OIG also met with the Acting Staff Director and
     staff to discuss differences of opinion between
     FEC management and the OIG regarding the
     FEC’s planned actions to address the weak-
     nesses cited in the audit report.
  •• An annual review of systems of internal con-
     trol for the OIG was conducted in compliance
     with the Federal Managers’ Financial Integrity
     Act, OMB Directive A-123, and FEC Directive
     #53. The OIG’s training program was selected
     for review to assess the internal controls of the
     program.

  •• The OIG Investigative Manual was updated
     and finalized during this reporting period.

  •• The OIG revised the office’s portion of the
     FEC’s new employee orientation briefing out-
     line and presented the revised version to em-
     ployees new to the FEC.

  •• The OIG performed and documented a local
     destruction of eight cubic feet of OIG excess
     paper records in accordance with the OIG’s
     record retention/destruction plan. The OIG also
     met with the FEC’s new Records Officer and
     provided a briefing on the state of FEC pa-
     per records management efforts from 2002 to
     present.


                                                         11
                              Office of Inspector General Semiannual Report to Congress




       Council of the Inspectors General on
     Integrity and Efficiency (cigie) Activity:


                         The Inspector General continues to be very in-
                         volved in CIGIE. Ms. McFarland is a member of the
                         Executive Council, which is composed of the Chair,
                         Vice Chair, the past Vice Chair of the PCIE, all
                         Committee Chairmen and one member appointed by
                         the Chair. The Executive Council provides guidance
                         on CIGIE initiated projects and the operating plans
                         for each fiscal year. The Council meets monthly to
                         discuss issues that will affect CIGIE.

                         The Inspector General co-chairs the Inspector
                         General Candidate Recommendation Panel with the
                         Justice Department Inspector General. This panel is
                         charged with making recommendations of qualified
                         candidates to the White House and heads of vari-
                         ous federal agencies to be considered for vacant
                         Inspector General positions.

                         The Inspector General also serves as Vice Chair
                         of the CIGIE Professional Development Committee.
                         This committee is charged with ensuring that there
                         is strong, relevant training for the Inspector General
                         community. Part of the charge of the committee is to
                         establish training academies for each of the profes-
                         sional designations in the IG community. This is an
                         on-going project.

                         During this reporting period, the Inspector General
                         led a panel of IGs conducting interviews of candi-
                         dates for the position of Executive Director of CIGIE,
                         and served as a panel member for the interview
                         process for the Executive Director of the Training
                         Institutes for CIGIE. The Inspector General also re-
                         sponded to the CIGIE Legislative Committee’s re-
                         quest for input concerning various legislation affect-
                         ing the OIG community.




12
April 1, 2010 - September 30, 2010




                                                           OIG Contacts




                                          The table below indicates the total amount of con-
                                          tacts received by the Office of Inspector General
                                          for the past six months – April 1, 2010 through
                                          September 30, 2010.

                                          These contacts were made through various sources
                                          such as telephone calls, e-mails, faxes, U.S. mail,
                                          and personal visits to the OIG.




                                      Total          OIG         No Action       Forwarded
                                     Contacts       Action       Necessary       for Action

                                       126            50             47              29




                                                                                               13
                                                               Office of Inspector General Semiannual Report to Congress




                                         List of Training, Meetings
                                                   and Conferences



The chart listed below depicts training, meetings, programs, seminars, and/or conferences attended by the
Inspector General and/or the OIG staff for the period April 1, 2010 – September 30, 2010.


                  Host/Sponsor                                               Topic/Subject
                                                       Monthly Meetings
                                                       Executive Council Meetings
                                                       Professional Development Committee Meetings
                                               CIGIE   Financial Statement Audit Network (FSAN) Meetings
                                                       New Leadership Development Program
                                                       CIGIE/GAO Annual Audit Conference

     Council of Counsels to the Inspectors General     Monthly CCIG Meetings

      Assistant Inspector General for Investigations   AIGI Quarterly Meetings

                    Federal Audit Executive Council    FAEC Quarterly Meetings

           Association of Government Accountants       5th Annual Internal Control and Fraud Conference
                                                       59th Annual Professional Development Conference

                  Executive Women in Government        Writing Women Back into History – Annual Summit &
                                                       Training Conference
                             Management Concepts       Preparing High Impact Reports Training

  Federal Law Enforcement Training Center (FLETC)      IG Basic Non-Criminal Investigator Training Program

                        Lincoln Leadership Institute   Transformational Journey from Gettysburg Training

                    American Bar Association (ABA)     ABA Legal Training

                         Human Resources Institute     2010 Black Women’s Conference
                                                       Leadership Training for Non-Supervisors

                             USDA Graduate School      Residential Professional Development Workshop




14
April 1, 2010 - September 30, 2010




                      Host/Sponsor                                           Topic/Subject
                                                          Weekly Directors’ Meetings
                                                          Finance Committee Meeting
                                                          OIG Bi-weekly Staff Meetings
                                                          Administrative Liaison Group Meetings
                                                          Web Governance Board Planning Meeting
                                                          Disaster Recovery/Continuity of Operations Plan
                                                               Meetings
                                                          Federal User Group TeamMate Forum
                            Federal Election Commission   Hatch Act Training
                                                          Privacy; Digital Signature; Comprizon and Security
                                                               Awareness Training
                                                          Contracting Officer’s Technical Representative (COTR)
                                                               Training
                                                          Creating Forms in PDF Training
                                                          OGC Litigation Update Session
                                                          Thinking Strategically Training (SkillSoft)
                                                          Managerial Skills and Abilities Training (SkillSoft)




                                                                                                             15
                                                                Office of Inspector General Semiannual Report to Congress




                                               Reporting Requirements


       Reporting requirements required by the Inspector General Act of 1978, as amended by the Inspector
       General Act Amendments of 1988 are listed below:

     	 IG Act	              Description	                                                                     Page


     Section 4(a)(2)        Review of Legislation                                                               10

     Section 5(a)(1)        Significant Problems, Abuses, and Deficiencies                                     None

     Section 5(a)(2)        Recommendations with Respect to Significant Problems, Abuses,                      None
                            and Deficiencies

     Section 5(a)(3)        Recommendations Included in Previous Reports on Which Corrective                    19
                            Action Has Not Been Completed (Table III)

     Section 5(a)(4)        Matters Referred to Prosecuting Authorities                                        None

     Section 5(a)(5)        Summary of Instances Where Information was Refused                                 None

     Section 5(a)(7)        Summary of Significant Reports                                                       5

     Section 5(a)(8)        Questioned and Unsupported Costs (Table I)                                          17

     Section 5(a)(9)        Recommendations that Funds be put to Better Use (Table II)                          18

     Section 5(a)(10)       Summary of Audit Reports issued before the start of the Reporting Period           N/A
                            for which no Management Decision has been made

     Section 5(a)(11)       Significant revised Management Decisions                                           N/A

     Section 5(a)(12)       Management Decisions with which the Inspector General is                           None
                            in Disagreement




16
April 1, 2010 - September 30, 2010




                                                                             TABLE I


INSPECTOR GENERAL ISSUED REPORTS WITH QUESTIONED COSTS


(DOLLAR VALUE IN THOUSANDS)




                                                      Number   Questioned   Unsupported
                                                                 Costs         Costs

 A. For which no management decision has been made      0          0             0
    by commencement of the reporting period


 B. Which were issued during the reporting period       0          0             0


      Sub-Totals (A&B)                                  0          0             0


 C. For which a management decision was made during     0          0             0
    the reporting period


      (i) Dollar value of disallowed costs              0          0             0


      (ii) Dollar value of costs not disallowed         0          0             0


 D. For which no management decision has been made      0          0             0
    by the end of the reporting period

 E. Reports for which no management decision was        0          0             0
    made within six months of issuance




                                                                                          17
                                                                    Office of Inspector General Semiannual Report to Congress




                                                                                                    TABLE II


INSPECTOR GENERAL ISSUED REPORTS WITH RECOMMENDATIONS THAT
FUNDS BE PUT TO BETTER USE


                                                                              Number                 Dollar Value
                                                                                                   (In Thousands)
 A. For which no management decision has been made by the                          0                          0
    commencement of the reporting period

 B. Which were issued during the reporting period                                  0                          0

 C. For which a management decision was made during the re-                        0                          0
    porting period
     (i) dollar value of recommendations were agreed to by                         0                          0
         management

        based on proposed management action                                        0                          0

        based on proposed legislative action                                       0                          0

     (ii) dollar value of recommendations that were not agreed to                  0                          0
          by management
 D. For which no management decision has been made by the                          0                          0
    end of the reporting period
 E. Reports for which no management decision was made within                       0                          0
    six months of issuance




18
April 1, 2010 - September 30, 2010




                                                                       TABLE III


SUMMARY OF AUDIT REPORTS WITH CORRECTIVE ACTIONS OUTSTANDING FOR MORE
THAN SIX MONTHS

                                                           Recommendations
           Report Title              Report      Issue Date   Number   Closed   Open
                                     Number
    2007 Performance Audit of        OIG-07-02     12/07        7        0       7
    Privacy and Data

    Audit Follow-up Review of the
    FEC’s Employee Transit Benefit   OIG-08-03     07/09       51        0      51
    Program

    2008 Audit of Procurement and    OIG-08-02     09/09       15        0      15
    Contract Management

    Audit of the FEC’s FY 2009       OIG-09-01     11/09       17        0      17
    Financial Statements




                                                                                     19
                          Office of Inspector General Semiannual Report to Congress




     This Page Intentionally Left Blank




20
April 1, 2010 - September 30, 2010




                      Federal Election Commission
                          Office of Inspector General




                                       Fiscal Year 2011
                                              Work Plan




                                            Lynne A. McFarland
                                             Inspector General
            ______________________________________________________________________________
            Semiannual Report to Congress        Page 24           April 2, 2010 – September 30, 2010




                                                                                                        21
                                                           Office of Inspector General Semiannual Report to Congress




                          TABLE OF CONTENTS

     A Message from the Inspector General-------------------------------------------- 1

     The Federal Election Commission--------------------------------------------------- 2

     Office of Inspector General------------------------------------------------------------ 2

     OIG Strategic Planning----------------------------------------------------------------- 3

     Annual Planning and Methodology Strategies---------------------------------- 4

     OIG 2011 Work Plan-------------------------------------------------------------------- 5

            Audits/Inspections/Reviews-------------------------------------------------- 5

            Investigative Program--------------------------------------------------------- 8

            Special Projects------------------------------------------------------------------ 9




22
April 1, 2010 - September 30, 2010




                               FEDERAL ELECTION COMMISSION
                               WASHINGTON, D.C. 20463
                               Office of Inspector General


                                         A Message from the Inspector General


                    I am pleased to present to the Commission the Office of Inspector General’s
            (OIG) fiscal year (FY) 2011 Annual Work Plan. This work plan includes a
            description of audit, inspections, investigative and special projects planned for the
            fiscal year. This plan also sets forth the OIG’s formal strategy for identifying
            priority issues and managing its workload and resources for FY 2011. Successful
            execution of this plan will enable the OIG to provide the highest quality work
            products to our stakeholders and to assist the FEC in meeting its strategic mission,
            goals and objectives.

                   The U.S. Federal Election Commission’s (FEC) mission is to prevent
            corruption in the federal campaign process by administering, enforcing and
            formulating policy with respect to federal campaign finance statutes. The OIG is
            committed to ensuring the integrity of FEC programs and operations. The
            development and continual updating of the OIG’s work plan is a critical aspect of
            accomplishing the OIG’s objectives to promote economy and efficiency in FEC
            programs and to detect and prevent fraud, waste and abuse. Effective work
            planning ensures that audit and investigative resources are used effectively and
            efficiently. I look forward to a successful year of providing the highest quality of
            audit and investigative support and service to our stakeholders.

                  I am also committed to ensuring effective lines of communication with the
            Commission regarding OIG work activities and issues of concern and importance to
            the Commission. Information on OIG work activity will be reported to the
            Commission in quarterly reports and also in the OIG’s Semiannual Reports to
            Congress.




            Lynne A. McFarland
            Inspector General
            Federal Election Commission

            October 1, 2010




                                                             1




                                                                                                    23
                                                  Office of Inspector General Semiannual Report to Congress




     The Federal Election Commission
           In 1975, Congress created the Federal Election Commission (FEC) to
     administer and enforce the Federal Election Campaign Act (FECA). The duties of
     the FEC, an independent regulatory agency, are to disclose campaign finance
     information; enforce the provisions of the law; and oversee the public funding of
     Presidential elections.

           The Commission is made up of six members, who are appointed by the
     President and confirmed by the Senate. Each member serves a six-year term, and
     two seats are subject to appointment every two years. By law, no more than three
     Commissioners can be members of the same political party, and at least four votes
     are required for any official Commission action. The Chairmanship of the
     Commission rotates among the members each year, with no member serving as
     Chairman more than once during his or her term. Currently the FEC has a full
     complement of Commissioners – Matthew S. Petersen; Cynthia L. Bauerly; Ellen L.
     Weintraub; Steven T. Walther; Caroline C. Hunter; and Donald F. McGahn, II.




     Office of Inspector General
            The Inspector General Act of 1978 (P.L. 100-504), as amended, states that the
     Inspector General is responsible for: 1) conducting and supervising audits and
     investigations relating to the Federal Election Commission’s programs and
     operations; 2) detecting and preventing fraud, waste, and abuse of agency programs
     and operations while providing leadership and coordination; 3) recommending
     policies designed to promote economy, efficiency, and effectiveness of the
     establishment; and 4) keeping the Commission and Congress fully and currently
     informed about problems and deficiencies in FEC agency programs and operations,
     and the need for corrective action. The OIG budget request for fiscal year 2011 was
     $1,325,940 to cover salaries and related expenses for six staff members, to include
     audit contracts and training. Exhibit 1 on the following page contains the OIG’s
     organizational chart.




                                              2




24
April 1, 2010 - September 30, 2010




            Exhibit 1: FEC - OIG Organizational Chart

              Dorothy Maddox-Holland
                                               Lynne A. McFarland
              Special Assistant to the
                                                Inspector General
                Inpsector General




                                                                                   J. Cameron Thurber
                                                   Jon Hatfield
                                                                                    Counsel to the IG
                                             Deputy Inspector General
                                                                                    Chief Investigator




                                                   Irene Porter

                                                    Sr. Auditor




                                                    Mia Forgy

                                                   Staff Auditor




            OIG Strategic Planning
            Strategic Plan
                   To enhance the effectiveness of the OIG and to ensure effective audit and
            investigative coverage of the Commission’s programs and operations, in 2010 the
            OIG updated our strategic plan covering the period 2010 through 2015. Three
            major categories of OIG-wide goals and objectives were identified, which are as
            follows:

                •    OIG Products: To provide products and services that promote positive
                     change in FEC policies, programs, and operations.

                •    OIG Processes: To develop and implement processes, policies, and
                     procedures to ensure the most effective and appropriate use of OIG resources
                     in support of our people and products.

                •    OIG Staff: To maintain a skilled and motivated work force in an
                     environment that fosters accountability, communications, teamwork, and
                     personal and professional growth.



                                                             3




                                                                                                         25
                                                   Office of Inspector General Semiannual Report to Congress




            In addition, strategies and performance measures for each objective are
     included in the strategic plan. For example, an OIG performance measure for
     audits includes using feedback from stakeholder surveys to continually improve the
     OIG’s audit process. At the conclusion of each audit/inspection/review, the OIG
     distributes a stakeholder survey to the program officials to solicit their feedback on
     the usefulness of the completed OIG assignment and their overall satisfaction with
     the process.

            The OIG strategic plan will continue to evolve and will be reviewed and
     updated as necessary to ensure maximum effectiveness in meeting the changing
     needs of the FEC, consistent with the OIG’s statutory responsibilities. A detailed
     illustrative version of the OIG’s strategic plan can be found as an attachment of this
     Annual Work Plan.


     Annual Planning and Methodology Strategies

            The planning methodology that we have adopted is built around the OIG staff
     brainstorming sessions held annually each summer, as well as soliciting and
     receiving feedback and ideas from stakeholders throughout the year. The annual
     work plans will, of course, require periodic updates to reflect changes, such as new
     priorities, as well as any changes in OIG resources. In the summer of 2010, the
     OIG conducted our third annual all-day brainstorming session. Similar to 2008 and
     2009, the ideas and suggestions generated from the 2010 brainstorming session
     were separated into categories to include audits, inspections, investigative program,
     and special projects, and then ranked (i.e., high, medium and low) according to
     priority.

           In anticipation of the OIG annual brainstorming sessions, the OIG sends an
     e-mail to all FEC staff seeking input in formulating the OIG’s work plans.
     Historically, the OIG receives useful audit suggestions from FEC staff which are
     then considered during the annual planning process.

            The OIG planning process is designed to yield work assignments that will
     identify opportunities for economy, efficiency and effectiveness in FEC programs
     and operations; and detect and prevent fraud, waste, abuse and mismanagement.
     The priority for conducting work assignments is based on (1) mandatory legislative
     requirements; (2) emphasis by the President, Congress, and the Commission; (3) a
     program’s susceptibility to fraud, manipulation, or other irregularities; (4) dollar
     magnitude or resources involved in the proposed area; (5) management needs
     identified through consultation with primary organization heads; (6) newness,
     changed conditions, or sensitivity of an organization; (7) the extent of outstanding
     issues resulting from prior audit coverage or review by the OIG or other oversight
     body; and (8) the adequacy of internal control systems in place for the program or
     other factors.


                                               4




26
April 1, 2010 - September 30, 2010




                   Based on the results of the OIG’s planning process, the OIG’s annual work
            plan is divided into three primary categories:

                (1) Audits/Inspections/Reviews;
                (2) Investigative Program; and
                (3) Special Projects.


            OIG 2011 Work Plan
            AUDITS/INSPECTIONS/REVIEWS

                   The term “audit” is used to describe work performed by auditors in examining
            financial statements, as well as work performed in reviewing compliance with
            applicable laws and regulations, the economy and efficiency of operations, and the
            effectiveness in achieving program results. These audits are prepared in accordance
            with generally accepted government auditing standards and vary in scope and
            complexity. Inspections and reviews are conducted in accordance with quality
            standards issued by the federal Inspector General community.

            For Fiscal Year 2011, the following audit related assignments are planned:


                1. Audit of the Federal Election Commission’s 2010 and 2011 Financial
                   Statements.

                    In accordance with the Accountability of Tax Dollars Act of 2002, the FEC is
                    required to prepare annual financial statements in accordance with Office of
                    Management and Budget (OMB) Circular No. A-136, Financial Reporting
                    Requirements. The Chief Financial Officers Act of 1990, as amended,
                    requires the FEC Inspector General, or an independent external auditor
                    selected by the IG, to audit the agency financial statements.

                    We will oversee the audit conducted by the OIG’s independent public
                    accounting firm Leon Snead & Company. The OIG is responsible for 1)
                    reviewing the auditor’s approach and planning of the audit; 2) evaluating the
                    qualifications and independence of the auditors; 3) monitoring the work of
                    the auditors; 4) examining audit documents and reports to ensure compliance
                    with government auditing standards, and OMB Bulletin No. 07-04, Audit
                    Requirements for Federal Financial Statements, as revised; and 5) other
                    procedures the OIG deems necessary to oversee the contract and audit.

                    Planned period of audit: May 2010 – November 2010;
                                             May 2011 – November 2011.


                                                      5




                                                                                                    27
                                              Office of Inspector General Semiannual Report to Congress




     2. Audit of the Federal Election Commission’s Human Resources Office.

       The OIG is planning to conduct a performance audit of the FEC’s Human
       Resources (HR) Office during fiscal year 2011. The HR Office is a critical
       component of the agency and is responsible for several important functions, to
       include recruitment and retention of qualified staff; employee-employer
       relations; administration of employee benefits; maintenance and processing of
       personnel records; training; among other responsibilities. The Office of
       Personnel Management (OPM) conducted a Human Capital Management
       Evaluation of the FEC in 2009 and reported numerous weaknesses and
       deficiencies. The purpose of the OIG’s audit will be to follow-up on the
       weaknesses identified by OPM to ensure appropriate corrective action has been
       taken by the FEC; and also focus on additional high-risk areas not covered by
       the 2009 OPM evaluation.

       Planned period of audit: April – July 2011.
     3. Audit Follow-up of the OIG’s 2006 Inspection and 2007 Audit of
        Privacy and Data Protection.

       The OIG will oversee an independent public accounting (IPA) firm conduct an
       audit follow-up of two previously issued reports on the FEC’s privacy and data
       protection policies, procedures and practices.

       In 2006, the OIG contracted with an IPA firm to conduct an inspection of
       personally identifiable information within the FEC. In addition, in 2007 the
       OIG contracted with another IPA firm to conduct a performance audit of
       privacy and data protection policies as required by section 522 of the
       Consolidated Appropriations Act, 2005. Numerous recommendations were
       reported to the FEC in the inspection and audit reports to correct
       weaknesses, some of which have already been implemented and verified by
       the OIG. The purpose of the audit follow-up will be to determine whether the
       FEC has implemented the outstanding recommendations.

       Planned period of audit: October 2010 – January 2011.

     4. Audit Follow-up of the OIG’s Audit of Procurement and Contract
        Management.

       The OIG will oversee an IPA firm conduct an audit follow-up of the 2009
       performance audit of the FEC’s procurement and contract management.

       Previously, the OIG contracted with an IPA firm to conduct a performance
       audit of the procurement and contract management policies and procedures
       used by the FEC and to determine whether the agency is complying with the

                                          6




28
April 1, 2010 - September 30, 2010




                    policies and procedures, and applicable federal acquisition laws and
                    regulations. The audit of the FEC’s procurement and contract management
                    activities identified nine significant issues that warranted corrective action.
                    The purpose of the audit follow-up will be to determine whether the FEC has
                    taken appropriate corrective action to address the weaknesses.

                    Planned period of audit: November 2010 – March 2011.

                5. Audit Peer Reviews.

                    The OIG commenced an audit peer review of the Commodity Futures Trading
                    Commission OIG in the summer of 2010 as part of the Council of Inspectors
                    General on Integrity and Efficiency’s audit peer review program.
                    Government auditing standards require audit organizations to have an
                    external review of their quality control system at least every three years.
                    The OIG is planning to issue the final peer review report by November 2010.

                    In addition, the FEC OIG is scheduled to be peer reviewed in FY 2011 by
                    another OIG. As a result, the FEC OIG will be required to provide the peer
                    review team documentation on the OIG’s quality control processes, audit
                    workpapers, and other information for evaluation of the OIG’s compliance
                    with government auditing standards and internal policies and procedures.

                6. Audit Policies and Procedures Manual.

                    The OIG began an update of the OIG’s audit manual in 2010 and expects to
                    finalize the manual in late 2010. The updated audit policies and procedures
                    manual will reflect changes in auditing standards and the OIG’s audit
                    environment, to include the use of electronic working papers.

                7. Limited Scope Inspections.

                    The OIG is planning to conduct a minimum of two limited scope, or short-
                    term, inspections of FEC programs during FY 2011. The goal of the short-
                    term inspections will be to focus OIG resources on high-risk areas and
                    provide rapid, up-to-date information to FEC management and the
                    Commission on the efficiency and effectiveness of FEC programs.

                8. Additional Work Assignments.

                    The following additional assignments may be undertaken during FY 2011
                    based on available OIG resources, timing of management’s implementation of
                    audit recommendations, benefit to the agency and other relevant factors.
                    Priorities may be adjusted to reflect emerging issues during the FY.

                    a. Audit of the FEC’s Training Program.

                                                         7




                                                                                                      29
                                                   Office of Inspector General Semiannual Report to Congress




           b.   Audit of the FEC’s Records Management Program.
           c.   Inspection of the FEC’s Security and Disposal of Agency Equipment.
           d.   Inspection of the FEC’s Occupant Emergency Plan.
           e.   Review of the FEC’s Security Guard Policies and Practices.


     INVESTIGATIVE PROGRAM

            The OIG’s investigative program is intended to add value to the agency’s
     programs and operations by identifying and investigating allegations of fraud,
     waste, abuse and misconduct leading to criminal, civil, and administrative penalties
     and recoveries. Investigations typically originate as hotline complaints and may
     result in formal investigations if the OIG believes an investigation is warranted.
     The OIG’s investigative program also provides for initiatives designed to monitor
     specific high-risk areas within FEC programs and operations in order to proactively
     identify vulnerabilities in order to prevent fraud, waste and abuse.

     For Fiscal Year 2011, the following investigative assignments are planned:


        1. Manage Hotline Complaints and Investigation Caseload.

           The OIG will respond to hotline complaints during the fiscal year and report in
           a timely manner to the appropriate officials on the resolution of hotline
           complaints and investigations.

        2. Outsource OIG Hotline.

           During the fiscal year, the OIG is planning to contract with a vendor to provide
           a hotline service. Hotline complaints and investigations will continue to be
           handled by OIG staff, however, the outsourced OIG hotline will provide FEC
           employees, contractors and interested parties with an additional mechanism to
           submit complaints of fraud, waste, abuse and misconduct to the OIG.

        3. Proactive Investigative Initiatives.

           The OIG will initiate proactive reviews involving high-dollar and high-risk
           programs and operations of the agency. In addition, the OIG has identified
           several agency data systems, such as financial related systems, and plans to
           pursue direct read-access for OIG personnel as part of the OIG’s proactive
           initiatives to prevent fraud, waste, abuse and misconduct.




                                               8




30
April 1, 2010 - September 30, 2010




                4. Outreach.

                    Throughout the fiscal year, the OIG will conduct fraud/OIG awareness
                    briefings with division management and staff. The briefings are intended to
                    educate FEC staff about the potential for fraud in FEC programs, such as
                    travel, workers compensation, time and attendance, and government charge
                    card activity. Discussion and education on fraud will help employees to
                    identify and report suspected fraud and help reduce the number of fraud
                    cases. The briefings will also educate the FEC staff about the OIG’s mission;
                    how to report complaints to the OIG; and whistleblower protections to
                    prevent retaliation against employees and contractors who report allegations
                    of serious wrongdoing or gross mismanagement to the OIG or the agency.

                    In addition, the OIG will continue the new employee orientation program to
                    meet with all new employees to discuss the purpose and mission of the OIG.
                    Lastly, the OIG will review and revise, as necessary, the OIG’s FECNet
                    (intranet) site, public Web site, OIG brochure, fraud poster, and other
                    outreach initiatives.


            SPECIAL PROJECTS
                    In addition to the OIG’s audit and investigative responsibilities, the OIG will
            be responsible for numerous additional projects and activities during fiscal year
            2011. For example, as required by the Inspector General Act of 1978, as amended,
            all legislation compiled by the Commission’s Congressional Affairs Office is
            reviewed by the Inspector General. The Inspector General and staff also participate
            in several federal Inspectors General community working groups on topics related
            to law, audits, and investigations. All of these activities contribute to the success
            and mission of the OIG. Additional special projects will arise throughout the fiscal
            year and the OIG will prioritize our workload to respond to the additional
            requirements.

            For Fiscal Year 2011, the following are examples of the special projects and
            activities planned by the OIG:


                1. Participate and Attend Professional Working Group and Other
                   Meetings.

                    The Inspector General or OIG staff will regularly attend the following
                    Council of the Inspectors General on Integrity and Efficiency (CIGIE)
                    professional working group meetings: CIGIE; Executive Council of CIGIE;
                    CIGIE Professional Development Committee; IG Candidate
                    Recommendations Panel Committee; IG Council of Counsels; Assistant

                                                       9




                                                                                                      31
                                               Office of Inspector General Semiannual Report to Congress




       Inspector General for Investigations; Federal Audit Executive Council; and
       Financial Statement Audit Network Group.

       In addition to CIGIE professional working group meetings, the Inspector
       General or staff will regularly attend FEC weekly senior level meetings, and
       quarterly management and FEC town-hall meetings during the fiscal year.

     2. Semiannual and Quarterly Reporting.

       In accordance with the Inspector General Act of 1978, as amended, the OIG
       will prepare and transmit to the Congress semiannual reports on the
       activities of the OIG. Semiannual reports summarize OIG activities during
       the immediately preceding six-month periods ending March 31st and
       September 30th of each year. OIG semiannual reports are also provided to
       the Commission. The OIG will also report on a quarterly basis to the
       Commission on the activities of the office.

     3. Professional Development and Training.

       The goal of the OIG’s training program is to provide cost effective training to
       increase professional knowledge and proficiency, and ensure staff meet
       continuing professional educational requirements. As a result, the OIG staff
       will attend professional training and conferences during the fiscal year to
       maintain and improve their knowledge, skills and abilities.

     4. Audit Follow-up Tracking Database.

       The OIG will complete and implement the OIG’s new audit follow-up tracking
       database during fiscal year 2011. In partnership with the FEC’s Information
       Technology Division, the OIG worked in 2010 to develop the database to
       assist the FEC to adhere to the requirements of the Office of Management
       and Budget’s Circular A-50, Audit Followup, September 29, 1982. The audit
       follow-up database will be an important tool for the Commission,
       management, program officials and OIG to monitor and track the status and
       implementation of audit recommendations by the OIG, Government
       Accountability Office, Office of Personnel Management, and other oversight
       bodies.




                                          10




32
April 1, 2010 - September 30, 2010



        FEC/OIG Strategic Plan - Fiscal Years 2005 – 2010

                                                                   FEC / OIG Strategic Plan - Fiscal Years 2010 - 2015
             OIG Products: To provide products                           OIG Process: To develop and implement                            OIG Staff: To maintain a skilled and motivated
             and services that promote positive                          processes, policies, and procedures to ensure                    work force in an environment that fosters
             change in FEC policies, programs, and                       the most effective and appropriate use of OIG                    accountability, communications, teamwork, and
             operations.                                                 resources in support of our people and                           personal and professional growth.
                                                                         products.

             Objective A: Deliver timely, high-quality                                                                                    Objective A: Attract and retain well-qualified,
             products and services that promote                                                                                           diverse and motivated employees.
             positive change.                                              Objective A: Maintain a dynamic strategic
                                                                           planning process.                                              Strategy:
                                                                                                                                          - develop and implement a comprehensive recruiting program
             Strategy:                                                                                                                    that attracts a broad population with the knowledge, skills,
             - establish common OIG standards for communicating            Strategy:
                                                                                                                                          abilities, and expertise necessary to make meaningful
             results;                                                      - periodically review and update the strategic plan to
                                                                                                                                          contributions to the OIG;
             - conduct quality assurance programs;                         address changing OIG and FEC priorities; and,
                                                                                                                                          - assess employee satisfaction and develop strategies to
             - solicit appropriate internal and external review and        - identify factors that influence organizational change
                                                                                                                                          address employee concerns;
             comment;                                                      and develop short and long term plans to address them.
                                                                                                                                          - identify reasons for staff departures and develop plans to
             - comply with applicable statutory guidelines and                                                                            foster greater staff retention; and,
             standards;                                                                                                                   - adhere to EEO principles and strive to maintain a diverse work
             - set realistic and appropriate milestones.                                                                                  force.

             Objective B: Address priority issues
             and concerns of the Commission,
                                                                           Objective B: Plan and conduct cost-
             Management, and Congress.
                                                                           effective work that address critical issues                    Objective B: Provide training and
             Strategy: Perform work that supports;                         and results in positive change.                                developmental opportunities to employees.
             - Federal Election Commission and Congressional
             priorities;                                                   Strategy:                                                      Strategy:
             - Strategic Management Initiative efforts;                    - solicit FEC and Congressional input in planning OIG          - assess training needs in relation not only to employee but also
                                                                           activities;                                                    office needs as well;
             Focus OIG attention in the following areas of                 - develop internal planning mechanisms to support FEC          - ensure that Government Auditing Standards in relation to
             emphasis:                                                     goals and priorities;                                          training are adhered to; and,
             - managing change;                                            - ensure that priorities of IG are effectively                 - maintain a reporting system to ensure that educational
             - resource allocation in relation to policy objectives;       communicated; and,                                             requirements are met.
             - delivery of client service;                                 - identify specific targets for OIG review that are the most
             - causes of fraud and inefficiency; and,                      cost-effective
             - automation and communication.



                                                                           Objective C: Identify customer needs and
                                                                           provide products and services to meet
             Objective C: Follow-up and evaluate                           them.                                                          Objective C: Assess, recognize, and reward,
             results of OIG products and services to                                                                                      when possible, performance that contributes to
             assess their effectiveness in promoting                       Strategy:                                                      achieving the OIG mission.
             positive change.                                              - establish new customer feed back mechanisms;
                                                                           - consider and evaluate customers feedback when
                                                                                                                                          Strategy:
                                                                           planning and developing products and services;
             Strategy:                                                     - respond to Congressional inquires and request for
                                                                                                                                          - develop and articulate expectations for each employee's
             - Identify, as appropriate, lessons learned to improve                                                                       performance, including contributions in meeting the mission &
                                                                           briefing and testimony;
             timeliness and quality; and,                                                                                                 goals of the OIG; and,
                                                                           - promote open exchange of ideas and information
             - conduct follow-up reviews to determine if intended                                                                         - ensure that rewards, when possible, are given in recognition of
                                                                           through outreach and through use of e-mail; and,
             results have been achieved.                                                                                                  exceptional employee performance.
                                                                           - receive, evaluate, and respond, as appropriate, to
                                                                           information received through the OIG hotline and other
                                                                           sources.


             Objective D: Satisfy customers,
             consistent with the independent nature                        Objective D: Implement efficient, effective,                   Objective D: Create and maintain a working
             of the OIG.                                                   and consistent resolution and follow-up                        environment that promotes teamwork and
                                                                           procedures.                                                    effective communication.
             Strategy:
             - establish professional communication and                    Strategy:                                                      Strategy:
             interaction with customers to promote the open                - ensure that IG follow-up procedures are followed and
                                                                                                                                          - ensure that communication between employees is open;
             exchange of ideas;                                            that management is aware of their role in the process;
                                                                                                                                          - provide employees with the tools and incentives they need to
             - incorporate customer feedback, as appropriate; and,         - establish common OIG standards for terminology, date
                                                                                                                                          adequately perform their duties.
             - be open to customer-generated solutions and                 maintenance and communications.
             options.

                                                                           Objective E: Establish a positive and
                                                                           productive working environment.

                                                                           Strategy:
                                                                           - reengineer or streamline OIG procedures to achieve the
                                                                           most effective use of resources; and,
                                                                           - ensure that necessary technologies, evolving and
                                                                           otherwise, are made available to staff as needed.



             Performance Measures: Determine the
             timeliness and quality of products and                        Performance Measures: An annual audit                          Performance Measures: All employees meet
             services; their effectiveness in                              plan is issued; strategic plan is periodically                 the training requirements; all employees have
             promoting positive change; and, reach                         reviewed; and, necessary technology is                         performance standards; and all employees
             agreement with management on at least                         provided to staff to enable them to most                       meet the basic requirements for the position in
             90% of recommendations within six                             efficiently perform their duties.                              which they were hired to perform.
             months of the report issue date.




                                                                                                                                                                                                              33
                         Federal Election Commission
                           Office of Inspector General




    Fraud Hotline
    202-694-1015




      or toll free at 1-800-424-9530 (press 0; then dial 1015)
      Fax us at 202-501-8134 or e-mail us at oig@fec.gov
      Visit or write to us at 999 E Street, N.W., Suite 940, Washington DC 20463




Individuals including FEC and FEC contractor employees are encouraged to alert the OIG to
fraud, waste, abuse, and mismanagement of agency programs and operations. Individuals
who contact the OIG can remain anonymous. However, persons who report allegations are encouraged
to provide their contact information in the event additional questions arise as the OIG evaluates the
allegations. Allegations with limited details or merit may be held in abeyance until further specific details
are reported or obtained. Pursuant to the Inspector General Act of 1978, as amended, the Inspector
General will not disclose the identity of an individual who provides information without the consent of that
individual, unless the Inspector General determines that such disclosure is unavoidable during the course
of an investigation. To learn more about the OIG, visit our Website at: http://www.fec.gov/fecig/fecig.shtml

                            Together we can make a difference.
